State of Washington's Administration of the Fire

    Management Assistance Grant Program

            for the Middle Fork Fire
                                                                                            Offce of Impector General
                                                                                            Offce of ßmergency Management Oversight

                                                                                            u.s. Department or Homeland Security
                                                                                            300 Frank H Ogawa Plaza, Ste. 275
                                                                                            Oakland, CA 94612


                                                                                            Homeland
                                                                                            Security
                                                               September 22, 2008

                                                                         Preface

The U.S. Department of 
  HomeJand Security (DHS) Offce oflnspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the
Inspector General Act of 1978. This is one of a series of audits, inspections, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and efficiency
within the department.

The attached report presents the results of 
 the audit of    the State of 
 Washington's Administration of
the Fire Management Assistance Grant Program for the Middle Fork Fire. We contracted with the
independent public accounting fiim of Wiliams, Adley & Company, LLP to perform the audit. The
contract required that Wiliams, Adley & Company, LLP perfonn its audit according to generally
accepted government auditing standards and guidance from the Robert T. Stafford Disaster Relief
and Emergency Assistance Act, Title 44 of 
     the Code of 
   Federal Regulations, and the Offce of
Management and Budget. Williams, Adley & Company, LLP reported two areas in which the State
öfWashington's administration of the Fire Management Assistance Grant Program could be
improved. The report contains three recommendations addressed to the Regional Administrator,
Federal Emergency Management Agency, Region X.

Williams, Adley & Company, LLP is responsible for the attached auditor's report dated August 29,
2008, and the conclusions expressed in the report. The recommendations herein have been discussed
in draft with those responsible for implementation. It is our hope that this report will result in more
effective, efficient, and economical operations. We express our appreciaÜon to all of 

                                                                                                                     those who
contributed to the preparation of 
               this report.


                                                                                 RrP~~~~0
                                                                                 Rob;rt~J~strico
                                                                                 Western Regional Director
                                                      ".--'f.



~~~~~~~',,~?~,~~~:;'~~?~l~?Y:~::P


  August 29, 2008


  Western Regional Director,
  Offce of 
Emergency Management Oversight

  Office of Inspector General

  U.S. Department of 
                 Homeland Security
  300 Frank H. Ogawa Plaza, Ste. 275
  Oakland, CA 94612


  Williams, Adley & Company, LLP performed an audit of 

                                                    the State of 
 Washington's management
  of the Federal Emergency Management Agency's funds awarded under the Fire Management
  Assistance Grant Program. The audit was performed in accordance with our Task Order TPD­
 ARC-BPA-07-00l4 dated September 27,2007.

 This report presents the results of 
           the audit and includes recommendations to help improve
 management of 
               the audited Fire Management Assistance Grant Program.

 Our audit was conducted in accordance with applicable Government Audiling Standards, July
 2007 revision. Although the audit report comments on costs claimed by the State of
 Washington, we did not perform a financial audit, the purpose of 

                                                                    which would be to render an
 opinion on the State ofWashingtoils financial statements or the funds claimed in the Financial
 Status Reports submitted to the Federal Emergency Management Agency.

 We appreciate the opportunity to have conducted this audit. Should YOll have any questions, or if
 we can be offurthcr assistance, please call me on (202) 371-1397.

 Sincerely,

 Williams, Adley & Company, LLP



                                             ;l
 í~:~.(_~ i-~ St!"-'2(~t, N V\f :..:~ ;::F                                                   ,,' ~ .
                                             ~ !. i      '/\fc~~~-~¡:'~~~lur~ UC ?COUS t".   ':"i .'   ,'",;;:'   í ;:.v :';' c:!.¡ :~.7 -; r-:'" ~.~_ .
                                                                                                                                                                   i



Table of Contents/Abbreviations
                                                                                                                                                                   I
                                                                                                                                                                  Ii



                                                                                                                                                                  /1




Executive Summary .............. ........................................................................................................ 1


Background............. ...................................................... ................................................................. 2


Results of Audit... ....... .......... ....... ................ .... .... ........ ............ ....... .......... ..... .......... .......... ..... ....... 3


     Suppoiting Documentation ..... ......... ....... ................... ............ .............. ............. ...... ... ........ ....... 3
     Project Worksheet Cost Inclusion ............. ....... .......... ... ............. .... ... ........ .......... ................... ... 5

Appendices

     Appendix A: Objectives, Scope, and Methodology................................................................ 7


Abbreviations

        CFR                        Code of 
       Federal Regulations
      .DHS                         U.S. Department of        Homeland Security

        DNR                        Department of  Natural Resources

        FEMA                       Federal Emergency Management Agency

        FMAG                       Fire Management Assistance Grant

        GAR                        Governor's Authorized Representative

        OIG                        Office of Inspector General

        PW                         Project Worksheet

        WMD-EMD                    Washington Military Dcpartment-Emergency Management Division

                                                                                                        J

Executive Summary                                                                                       11
                                                                                                         :j


                  Wiliams, Adley & Company, LLP audited the State of 
              Washington's (the
                  state) administration of 
           the Fire Management Assistance Grant (FMAG)          :1

                  Program for the Middle Fork Fire (FMAG Declaration 2477). The objective               !~


                  of   the audit was to determine whether the state administered the FMAG               I:!
                                                                                                        '1

                  Program in an effcient and effective manner. To accomplish the objective,             Ii

                  we considered the overall impact of material deficiencies on grant pr()gram           ¡i

                  administration. Specifically, we determined how well the state (i) coordinated        I'

                  and communicated with Federal Emergency Management Agency (FEMA)                      i


                  and sub 
 grant applicants, (2) ensured compliance with federal laws and FEMA         !
                  guidelines, and (3) accounted for and expended FMAG Program funds. See
                  Appendix A for additional details on the objectives, scope, and methodology
                  of this audit.



                  On July 12,2003, FEMA Region X awarded $ i ,456,420 under FMAG
                  Declaration 2477 to the Washington Military Department-Emergency
                  Management Division (WMD-EMD). WMD-EMD used the services of 
              two
                  subgrantees: the Department of 
    Natural Resources and the Washington State
                  Patrol. FEMA programmatically closed this declaration on February I I,
                  2005. Although the audit scope included a review of costs reimbursed under
                  the grant, a financial audit of 
 those costs was not performed. Accordingly, we
                  do not express an opinion on the state's financial statements or the funds
                  claimed in the financial status reports submitted to FEMA.

                 WMD-EMD administered the FMAG Program for the Middle Fork Fire in an
                 efficient and effective manner with respect to properly coordinating and
                 communicating with FEMA and subgrant applicants, but did not always
                 comply with federal laws and guidelines. Specifically, WMD-EMD: (1)
                 requested and FEMA paid $505,988 in expenditures that were not properly
                 supported, and (2) reimbursed demobilization costs, incorrectly requested by
                 the subgrantee, prior to the subgrantee's submission of 
 all other eligible costs.

                 We recommend that the Regional Administrator, FEMA Region X
                 (1) disallow the unsupported costs totaling $505,988, (2) require the state to
                 maintain proper documentation to support costs incurred according to the
                 grant records retention policy, and (3) advise the state to adhere to best
                 practices by requiring that sub 

                                                   grantees claim demobilization costs only after
                 submittal of all other eligible costs.

                 We held an exit conference with FEMA Region X and WMD-EMD officials
                 on August 20, 2008. FEMA Region X and WMD-EMD non-concurred with
                 the first finding and recommendations and concurred with the revised second
                 finding and recommendation. A synopsis of        the verbal comments we received
                 is included in the Results of Audit section of 
 this report.


     State of Washington's Administration of the Fire Management Assistance Grant Program
                                    for the Middle Fork Fire

                                                        Page 1

                                                                                                                    I
                                                                                                                 . 'jd

Background
                  The Rober T. Stafford Disaster Relief and Emergency Assistance Act,
                                                                                                                    I'
                  (Stafford Act), signed into law November 23, 1988, authorizes the President
                                                                                                                   I
                  to provide federal funds to state and local governments under the FMAG
                  Program for mitigation, management, and control of any fire burning on public
                  or private forestland or grassland. The FMAG Program replaced the Fire
                  Suppression Assistance Program on October 30,2001. Title 44, Code of

                  Federal Regulations (44 CFR),Part 204 provides the procedures for the
                  declaration and grants management processes for the FMAG Program and
                  details applicant eligibility and the eligibility of costs to be considered under
                  the program.

                  Declaration Process



                 A declaration request must be submitted while a fire is burning uncontrolled
                 and threatens such destruction as would constitute a major disaster. The
                 Governor or the Governor's Authorized Representative (GAR) is authorized to
                 submit requests to the FEMA Regional Administrator or Regional Fire Duty
                 Liaison for fire management declarations. Due to the magnitude and impact of
                 a fire, the Governor or GAR can expedite the declaration process by verbally
                 requesting the declaration but must follow-up promptly after the date of an
                 initial telephone request with all offcial forms and written information.

                 Upon declaration approval by FEMA, the Governor or GAR wil enter into a
                 standing FEMAlState Agreement (the Agreement) for the declared fire and for
                 future declared fires in that calendar year. The state must have a current and
                 signed Agreement before receiving federal funding under the FMAG
                 Program. The Agreement states the understandings, commitments, and
                 conditions under which FEMA will provide federal assistance, including the
                 75% federal and 25% non-federal cost share provision and articles of agreement
                 necessary for the administration of 
                 the grants. The Agreement must identify
                 the state legislative authority tor firefighting, as well as the state's compliance
                 with the laws, regulations, and other provisions applicable to the FMAG
                 Program.

                 Grant Application and Reimbursement Process

                 Following a declaration, the state is required to submit a grant application
                 package to the FEMA Regional Administrator within 9 months of the
                 declaration. The Regional Administrator may grant an extension of                    up to
                 3 months upon receipt of a wiitten request from the state that includes the
                 justification for an extension. The grantee must document the total eligible
                 costs for a declared fire on Project Worksheets (PWs), which are submitted
                 with the f,1fant application. The Regional Administrator has 45 days from the


     State of Washington's Administration of the Fire Management Assistance Grant Program
                                           for the Middle Fork Fire

                                                         Page 2

                    receipt of the state's initial grant application, or an amendment to the state's
                    grant application, to approve or deny the application package or amendment,
                    or to notify the state of a delay.



                    By submitting PWs, the grantee certifies that aÌl reported costs were incurred
                    for work that was performed in compliance with laws, federal regulations and
                    FMAG Program policy and guidance, as well as the terms and conditions
                    outlined in the FMAG Program FEMA/State Agreement. Upon approval of
                    the grant application, FEMA obligates funds after determining that: (I) the                'I
                    state's eligible costs meet or exceed the individual or cumulative fire cost
                    thresholds; and (2) the state has up-to-date Public Assistance State
                    Administrative and Hazard Mitigation Plans approved by the Regional
                    Administrator.

                    Subgrantee requests for FMAG Program funding are submitted on a Request
                    for Fire Management Assistance Subgrant (FEMA Form 90-133) to the grantee
                    according to state procedures and within timelines set by the grantee. This
                    request must be submitted no later than 30 days after the close of          the incident
                    period. The grantee will review and forward the request to the Regional                    !.

                    Administrator for final review and determination.

Results of Audit
                    WMD-EMD administered the FMAG Program for the Middle Fork Fire in an
                    efficient and effective manner with respect to properly coordinating and
                    communicating with FEMA and subgrant applicants. However, WMD-EMD
                    did not always comply with federal laws and FEMA guidelines or ensure that
                    FMAG Program expenditures were properly supported based on the following
                    exceptions.

     Supporting Documentation
                   WMD-EMD lacked suffcient documentation to support $505,988 in FMAG
                   Program expenditures. Specifically,

                         1. WMD-EMD was unable to provide any documentation to support
                            $448,028 in expenditures claimed by its subgrantee, the Department of
                            Natural Resources (DNR), for equipment and other charges, and

                         2. WMD-EMD was unable to provide complete documentation to
                              support $57,960 in payroll costs also claimed by DNR. For 49 of   the
                              198 (25%) payroll transactions tested in conjunction with our review
                              ofPW #4, we were provided with payroll-related documentation with
                              the exception of the employees' pay rate. As a result, we could not
                              recalculate and validate payroll costs totaling $57,960.

       State of Washington's Administration of the Fire Management Assistance Grant Program

                                      for the Middle Fork Fire


                                                         Page 3

                                                                                                                   I
                                                                                                                  i
                                                                                                                   J
                                                                                                                   ~
                                                                                                                  ::i
                                                                                                                  ;'¡
                                                                                                                  1;1

                   According to 44 CFR 44. i 3 20(b)( 6), the accounting records of grantees and                  ':1
                                                                                                                  ~-i

                   subgrantees must be supported by such source documentation as cancelled                        !1
                                                                                                                  11
                   checks, paid bils, payrolls, time and atteridance records, contract and sub 

                                                                                               grant                  !
                   award documents, etc. Additionally, 44 CFR 13.42(a) through (c) provide
                   guidance for the retention of all financial and programmatic records,
                   supporting documents, statistical records, and other records and state that:
                                                                                                                 11



                        · Records must be retained for 3 years from the date the grantee submits                 II


                            its final expenditure report; or
                                                                                                                 Ii
                                                                                                                 I;

                        · If any litigation, claim, negotiation, audit or other action involving the
                                                                                                                 11
                             records has been stai1ed before the expiration of the 3-year period, the            'i
                                                                                                                 'i
                             records must be retained until completion of                          the action.
                                                                                                                 I:
                  Furthermore, 44 CFR 204.53 stipulates that by submitting applicants' PWs to                    .'
                                                                                                                 ¡,

                  FEMA, the grantee is certifying that all costs reported on those PWs were
                  incurred for work that was performed in compliance with FEMA laws,                             I!
                  regulations, policy and guidance applicable to the FMAG Program, as well as                    i!

                  with the terms 
 and conditions outlined for the administration of the grant in                lI:
                                                                                                                 I:
                  the FEMA/State Agreement for the FMAG Program.                                                 I!



        Recommendations
                  We recommend that 'the Regional Administrator, FEMA Region X,

                  Recommendation #1. Disallow unsupported costs totaling $505,988.

                  Recommendation #2. Require the state to enhance its review system to
                  ensure that all expenditures are in compliance with the laws and regulations
                  that govern the FMAG Program and that proper documentation is maintained
                  to support the costs incurred according to the grant records retention policy.

       Management Comments

                  FEMA Region X and WMD-EMD offcials did not verbally concur with the
                  finding and recommendations during the exit conference because they were
                  not aware of 
 the specific costs identified as unsupported and had not had the
                  opportnity to determine if such documentation could be located.



                 The auditor previously reported unsupported costs approximating $652,000
                 during a status meeting at the end of fieldwork. At that time, DNR and
                 WMD-EMD offcials requested additional time to submit supporting
                 documentation, and the auditor agreed. DNR subsequently provided
                 supporting documentation that reduced the questioned costs from

State of 
   Washington's Administration of the Fire Management Assistance Grant Program

                                   for the Middle Fork Fire


                                                       Page 4

                                                                                                                      1
                                                                                                                      i

                    approximately $652,000 to the $505,988 currently being reported. During the                       j

                    time period granted by the auditor to submit supporting documentation, DNR
                                                                                                                      1
                    was unable to locate documentation for the total amount of questioned costs.                      1

                    Until the grantee provides documentation to support the costs claimed, we
                    continue to question the $505,988 reported in this finding.                                      Ij

                                                                                                                     Ii
                    During the exit conference, the auditor agreed to provide FEMA Region X                          Ii
                    and WMD-EMD officials with suffcient detail of 
                  the unsupported costs so
                    that a search for the supporting documentation could be made. The auditor                        Ii
                    contends that the total amount of questioned costs associated with the                           ¡:
                                                                                                                     ¡:
                    unsupported expenditures may be reduced subsequent to the issuance of the                        ¡i
                                                                                                                     ¡,
                    final report ifWMD-EMD personnel are able to obtain supportng                                    I"
                                                                                                                     i""
                                                                                                                     I":
                    documentation for some or all of                 the expenditures in question, and the auditor   ii
                    concludes that such documentation is sufficient.                                                 t
                                                                                                                     ~!
                                                                                                                     c"
                                                                                                                     ."

Project Worksheet Cost Inclusion                                                                                     r:
                                                                                                                     i.
                    WMD-EMD should have ensured that its subgrantee, DNR, properly included                          i~

                                                                                                                     ii
                    program expenditures on the PW it submitted to WMD-EMD. DNR claimed
                    reimbursement for demobilization costs on a PW before including all other
                    eligible costs incurred during the approved incident period. Specifically,
                    DNR did not include incident period costs that were incurred on July 18, 2003
                    but did include demobilization costs that were incurred outside of the incident
                    period. Lack of adherence to FMAG Program policies and procedures could
                    result in reimbursement of ineligible expenditures or the state or sub 

                                                                                         grantee
                    not being reimbursed for legitimate costs that were processed incorrectly.

                    According to FMAG Program policies and procedures, demobilization costs
                    may be claimed after submittal of other eligible costs if deployment involves
                    one or more declared fires. If resources are being used on more than one
                    declared fire, mobilization and demobilization costs must be claimed against
                    the first declared fire on which they are used.

                    Claiming demobilization costs only after submittal of all other eligible costs is
                    a best practice that ensures all costs have been accounted for and the
                    grantee/subgrantee receives the full benefit of 
 the FMAG Program.

           Recommendation
                   We recommend that the Regional Administrator, FEMA Region X:

                   Recommendation #3. Advise WMD-EMD to adhere to best practices by
                   requiring that subgrantees claim demobilization costs only after submittal of
                   an other eligible costs.



       State of Washington's Administration of the Fire Management Assistance Grant Program

                                      for the Middle Fork Fire


                                                         Page 5

     Management Comments

             FEMA Region X and WMD-EMD officials said during the exit conference

             that they would concur with the recommendation provided that the condition

             was rephrased to indicate lack of adherence to best practice rather than a

             violation of federal regulations.


             The auditor agreed with FEMA Region X and WMD-EMDofficials and has

             revised the report accordingly.





                                                                                           t.
                                                                                           ¡~




State of \Vashington's Administration of the Fire Management Assistance Grant Program
                                for the Middle Fork Fire

                                       Page 6

 Appendix A
 Objectives, Scope, and Methodology                                                                                    I
                                                                                                                       H

                                                                                                                       11

                          Objectives                                                                                   I:
                                                                                                                       Ii
                                                                                                                       l!
                                                                                                                       I:
                          The
                            objective of the audit was to determine whether the state administered the
                                                                                                                       !j
                          FMAG Program in an effcient and effective manner. To accomplish the                          ;j
                                                                                                                       Ii
                          objective, we considered the overall impact of material deficiencies on grant                i:j
                                                                                                                         !
                          program administration. Specifically, we determined how well the state:
                          (l) coordinated and communicated with FEMA and subgrant applicants,
                          (2) ensured compliance with federal laws and FEMA guidelines, and
                          (3) accounted for and expended FMAG Program funds.

                          We were not engaged to and did not perform a financial statement audit, the
                          objective of 
     which would be to express an opinion on specified elements,
                          accounts, or items. Accordingly, we were neither required to nor expressed an
                          opinion on the costs claimed for the grant programs included in the scope of
                          the audit. Had we been required and performed additional procedures or
                          conducted an audit of 
           the financial statements according to generally accepted
                          auditing standards, other matters might have come to our attention that would
                          have been reported. This report relates only to the programs specified and
                          does not extend to any financial statements of             the state.

                          Scope

                         We audited the Middle Fork Fire (FMAG Declaration 2477) that was awarded
                         by FEMA to the state on July 12, 2003. The grant, totaling $1,456,420, was
                         programmatically closed on February 11,2005.1 This FEMA grant award was
                         selected for review because the award was significantly higher than other fire
                         declarations within the same FEMA Region. WMD-EMD administered the
                         FMAG Program.

                         Methodology

                         We perfonned fieldwork at FEMA Region X, WMD-EMD, and the
                         Department ofNaturaJ Resources and the Washington State Patrol, which
                         were the two subgrantees under the grant. To obtain an understanding of 
              the
                         grant procedures, we reviewed FEMA regulations, the Stafford Act as
                         amended, pertinent sections of 
                Title 44 of 
    the CFR, and Offce of
                         Management and Budget Circular A-87, Cost Principles/or State, Local, and
                         Indian Tribal Governmenls.




1 FMAG Programs are considered programmatically closed if all work has been completed and final cOSls submitted to
FEMA have been obligated.

           State of Washington's Administration of the Fin' Management Assistance Grant Program
                                          for the Middle Fork Fire

                                                     Page 7

Appendix A
Objectives, Scope, and Methodology

                      To achieve the objectives of 
           this audit, we:                              .'

                                                                                                            ¡;
                      1) Interviéwed FEMA, state, and sub 
    grantee personnel to obtain an
                            understanding of policies and procedures followed and to identify               Ii
                                                                                                            ,i

                            potential internal control weaknesses and their causes;                         !~
                                                                                                            i:
                                                                                                            i;
                                                                                                            Ii
                      2) Reviewed grant files to determine whether suffcient documentation was              )1

                          present to support proper administration of the grant;
                                                                                                            j;
                                                                                                            ,.
                                                                                                            .,
                      3) Reviewed the state's internal controls over accounting for grants to ensure        i;
                                                                                                            I;
                          that the state properly recorded and reported grant expenditures;                 Ii
                                                                                                            'i


                      4) Reviewed a statistical sample of 
 project worksheets to determine whether grant   l!
                                                                                                            "
                           monies were spent according to laws and regulations. We used appropriate
                           formulas to develop a variable sampling approach coupled with the risk model
                                                                                                            f!
                           promulgated by the American Institute of Certified Public Accountants.           ~!



                     5) Reviewed prior audit reports to determine whether deficiencies had been
                         noted in the reports with respect to the state's administration of 

                                                                                              the FMAG

                         Program or internal controls over grant fund accounting.


                     We conducted a perfonnance audit by executing tests, conducting interviews,
                     making observations and examining documentation in the following areas:

                     1. Applicant Eligibility

                     2. Cost Eligibility

                     3. Procurement

                     4. Grantee's Accounting System and Internal Controls

                     5. Project Worksheet Review

                     6. Grant Reporting


                     We conducted our audit between December 2007 and June 2008 and
                     performed our work according to the Government Auditng Standards
                     prescribed by the Comptroller General of the United States (July 2007
                     Revision).




        State of \Vashingtoils Administration of the Fire Management Assistance Grant Program
                                        for the Middle Fork Fire

                                                          Page 8

Additional Information and Copies
                             this repOlt, call the Office of Inspector General (OIG) at
To obtain additional copies of 



(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotlne
To repoit alleged fraud, waste, abuse or mismanagement, or any other kind of criininal
or noncriminal misconduct relative to department programs or operations:

      · Call our Hotline at 1-800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292;

      · Email us at DHSOIGHOTLlNE~dhs.gov; or

      · Write to us at:

                DHS Office ofInspector GenerallMAlL STOP 2600, Attention:

                Office ofInvestigations - Hotline, 245 Murray Drive, SW, Building 4 10,

                Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
